              U.S. Department of Energy
              Office of Inspector General
              Office of Audits and Inspections




Audit Report
Follow-up Audit of the
Stockpile Surveillance Program




OAS-L-12-10                        September 2012
                                 Department of Energy
                                   Washington, DC 20585

                                      September 13, 2012


MEMORANDUM FOR THE DIRECTOR, OFFICE OF TECHNOLOGY
                 MATURATION AND STOCKPILE ASSESSMENT
               DIRECTOR, OFFICE OF NUCLEAR WEAPON STOCKPILE
               SENIOR TECHNICAL ADVISOR FOR SURVEILLANCE,
                 NATIONAL NUCLEAR SECURITY ADMINISTRATION



FROM:                    David Sedillo, Director
                         Western Audits Division
                         Office of Inspector General

SUBJECT:                 INFORMATION: Audit Report on the "Follow-up Audit of the
                         Stockpile Surveillance Program"

BACKGROUND

The Department of Energy's National Nuclear Security Administration's (NNSA) stockpile
surveillance program provides information on the status of the Nation's nuclear weapons
stockpile. Through a variety of tests, the surveillance program detects stockpile defects due to
handling, aging, manufacturing, or design. Surveillance test results are used to support NNSA's
annual stockpile assessments.

In 2007, NNSA initiated the Surveillance Transformation Project (STP) to accelerate the
surveillance program to look for changes in an aging stockpile. The transformation called for an
increase in evaluations of nonnuclear components and materials (CMEs) and a reduction in
annual tests of weapons systems (laboratory) tests. In August 2009, the Office of Inspector
General (OIG) issued a report entitled Follow-Up Audit of the Stockpile Surveillance Program
(OAS-L-09-16, August 2009), which disclosed that the STP had the practice of eliminating
previously identified testing backlogs. However, due to the short period of time STP was in
effect, the OIG was unable to determine the effectiveness of the new approach.

In June 2011, we initiated a follow-up audit to determine whether STP goals and objectives were
being met. However, during our audit, we found that NNSA had issued a Surveillance
Enterprise Study in 2010, which concluded that the objectives of the STP were not met due to
transition challenges. Consequently, we revised our objective to determine whether NNSA took
actions to mitigate the STP transition challenges.

CONCLUSIONS AND OBSERVATIONS

Our review disclosed that NNSA had taken actions to mitigate the STP transition challenges
identified in the 2010 Surveillance Enterprise Study. The Study stated that there were gaps in
surveillance data that were further exacerbated by the decline in laboratory tests. Furthermore,
nonnuclear CMEs were not being achieved as rapidly as expected. To mitigate these challenges,
NNSA:

   •   Achieved increased surveillance data by increasing funding and expanding laboratory
       tests; and,

   •   Developed a comprehensive plan to complete baselining nonnuclear CMEs by the end of
       Fiscal Year (FY) 2018.

Although NNSA mitigated STP transition challenges, we noted that it had not established an
effective system of performance measurement over the Enhanced Surveillance (ES) subprogram.
Specifically, NNSA measured performance according to the percentage of budget spent rather
than on actual program accomplishments. After discussing our performance measurement
concerns with NNSA officials, NNSA replaced the measure with one that more accurately
reflects performance.

                                       Laboratory Testing

To address concerns regarding the lack of surveillance data for the annual stockpile assessments,
NNSA revised its STP approach by increasing surveillance data through expanded laboratory
testing. NNSA's Laboratory Directors expressed concerns in their annual assessments about
gaps of surveillance data due to a reduction in laboratory tests. For example, one Director stated
that the surveillance program was not providing the data from the stockpile to meet the
requirements to conduct rigorous system assessments. Consequently, in FY 2011, NNSA
increased surveillance funding within the Directed Stockpile Work (DSW) program by $58
million, which enabled, among other surveillance activities, a 142 percent increase (from 24 to
58 tests) in laboratory tests. NNSA plans to continue funding the surveillance program at or
above the FY 2011 level for future years. According to a senior NNSA official, the Laboratory
Directors assured NNSA that the proposed out-year funding will be sufficient to perform
surveillance activities to affirm confidence in the stockpile.

                        Nonnuclear Component and Material Evaluations

NNSA developed a plan to complete CME baselines by the end of FY 2018. One nonnuclear
CME activity involved developing a baseline requiring the collection of nonnuclear component
data to compare with future data in order to identify age-related change. In its FY 2010-2018
CME baselining roadmap, Sandia National Laboratories (Sandia) developed a plan to baseline
235 nonnuclear components within 14 nonnuclear component families by FY 2018. As of
October 31, 2011, Sandia had baselined 63 nonnuclear components, or approximately 27 percent,
of the 14 nonnuclear component families. In addition, NNSA's ES Program Implementation
Plan (PIP) in FYs 2010 through 2012 included performance milestones for Sandia to complete
all CME baselines by FY 2018.




                                                2
                                     Performance Measures

During our review, we noted that NNSA's performance measure for the ES subprogram that
supports the STP was based on funding rather than actual work accomplishments. In reviewing
NNSA's FY 2011 Performance Report and the ES FY 2011 PIP, we noted that ES reported that it
had achieved 100 percent of its annual planned scope and 62 percent of its long-term 20-year
(2003-2022) planned scope. However, in December 2011, ES officials told us that the
percentage completion of performance was actually based on the budget spent for its 20-year
period instead of actual work accomplishments. For example, at the end of FY 2011, ES had
spent approximately 62 percent of $1.5 billion—the amount that ES projected would accomplish
performance activities, including nonnuclear CME activities.

We discussed our concern with ES officials in January 2012, who agreed that they did not report
actual work accomplishments in NNSA's 2011 Annual Performance Report and that reporting
performance based on spending was not the best method to measure performance. As a result,
ES officials told us that they deleted the measure in FY 2012 and will no longer track
performance based on funding. The cumulative measure was replaced with a new measure that
tracks progress toward annual deliverables on a quarterly basis. For example, ES established
five deliverables for FY 2012, one of which included obtaining the assessment results for various
materials and component aging.

SUGGESTED ACTION

Because our review disclosed that NNSA has taken actions in mitigating the STP transition
challenges identified in the 2010 Surveillance Enterprise Study, we are not making any formal
recommendations. However, given the importance for ES to develop and deliver aging
diagnostics and predictive modeling through CMEs, we suggest that the Director, Office of
Technology Maturation and Stockpile Assessment, closely monitor progress made in meeting
CME requirements as defined in the ES FY 2012 PIP.

Management indicated that they will closely monitor progress made in meeting the CME
requirements identified in the ES FY 2012 PIP. We appreciate the cooperation of all staff
involved in this audit.

Attachment

cc: Deputy Secretary
    Associate Deputy Secretary
    Administrator, National Nuclear Security Administration
    Chief of Staff




                                                3
                                                                                      Attachment



                       OBJECTIVE, SCOPE AND METHODOLOGY

OBJECTIVE

The objective of the audit was to determine whether the National Nuclear Security
Administration (NNSA) took actions to mitigate the Surveillance Transformation Project
transition challenges identified in the 2010 Surveillance Enterprise Study.

SCOPE

The audit was performed between June 2011 and July 2012. We conducted our work at the
NNSA Albuquerque Complex (Albuquerque Complex) in Albuquerque, New Mexico; Sandia
National Laboratories (Sandia) in Albuquerque, New Mexico; the Pantex Plant (Pantex) near
Amarillo, Texas; and, NNSA Headquarters in Washington, DC.

METHODOLOGY

To accomplish the audit objective, we:

   •   Reviewed Department of Energy (Department) guidance, Federal regulations, policies
       and procedures pertinent to surveillance operations;

   •   Interviewed Federal and contractor personnel at NNSA Headquarters, the Albuquerque
       Complex, Sandia and Pantex; and,

   •   Reviewed reports on surveillance studies, prior audit reports and other documents related
       to the surveillance program.

We conducted this performance audit in accordance with generally accepted Government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our conclusions based on our audit objectives. The audit included tests of controls and
compliance with laws and regulations necessary to satisfy the audit objectives. In particular, we
assessed the implementation of the GPRA Modernization Act of 2010 and found that the
Department had revised its performance measure related to addressing the Enhanced
Surveillance Subprogram. Because our review was limited, it would not necessarily have
disclosed all internal control deficiencies that may have existed at the time of our audit. We did
not rely on computer-processed data to satisfy our audit objective.

Management waived an exit conference.




                                                4
                                                                    IG Report No. OAS-L-12-10


                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if applicable to you:

     1. What additional background information about the selection, scheduling, scope, or
        procedures of the audit or inspection would have been helpful to the reader in
        understanding this report?

     2. What additional information related to findings and recommendations could have been
        included in the report to assist management in implementing corrective actions?

     3. What format, stylistic, or organizational changes might have made this report's overall
        message more clear to the reader?

     4. What additional actions could the Office of Inspector General have taken on the issues
        discussed in this report that would have been helpful?

     5. Please include your name and telephone number so that we may contact you should we
        have any questions about your comments.


Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact our office at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page

                                           http://energy.gov/ig

      Your comments would be appreciated and can be provided on the Customer Response Form.
